Report No. D-2007-110        July 9, 2007




       Identification and Reporting of
         Improper Payments through
              Recovery Auditing
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

DCAA                  Defense Contract Audit Agency
DLA                   Defense Logistics Agency
DSCP                  Defense Supply Center Philadelphia
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
ODIG-AUD              Office of the Deputy Inspector General for Auditing
OMB                   Office of Management and Budget
PAR                   Performance and Accountability Report
TMA                   TRICARE Management Activity
USD(C)/CFO            Under Secretary of Defense (Comptroller)/Chief Financial Officer
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON, VIRGINIA 22202-4704





                                                                              July 9,2007


MEMORANDUM FOR UNDERSECRETARY OF DEFENSE
               (COMPTROLLER)/CHIEF FINANCIAL OFFICER

SUBJECT: Report on Identification and Reporting of Improper Payments through
         Recovery Auditing (Report No. D-2007-110)


       Weare providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report. The
Acting Deputy Chief Financial Officer comments to the draft of this report are partially
responsive; however, one recommendation remains unresolved.

        DoD Directive 7650.3 requires that all issues be resolved promptly. We request
that the Undersecretary of Defense (Comptroller)/ChiefFinancial Officer provide the
comments by August 9, 2007. See the Finding section of this report for the specific
comments required on recommendation number one.

       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to audcol@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the
/Signed/symbol in place of the actual signature. If you arrange to send classified
comments electronically, they must be sent over the SECRET Internet Protocol Router
Network (SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. James L. Kornides at (614) 751-1400, extension 211 or Mr. Curt W. Malthouse at
(614) 751-1400 , extension 230. See Appendix D for the report distribution. The team
members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:



                                         ~~~
                                         Pa   . Granetto, CPA

                                Assistant In ector General and Director

                                  Defense Financial Auditing Service

                Department of Defense Office of Inspector General
Report No. D-2007-110                                                           July 9, 2007
   (Project No. D2006-D000FJ-0156.001)

             Identification and Reporting of Improper Payments
                          through Recovery Auditing

                                  Executive Summary
Who Should Read This Report and Why? DoD financial managers and contracting
officials responsible for identifying and reducing improper payments should read this
report. It discusses efforts and methods for using recovery audits to identify and report
overpayments.

Background. Recovery auditing is a post-payment review and analysis of procurement
and payment documents that DoD Components use to identify overpayments to
contractors. For FY 2006 DoD reported it successfully used recovery audits to identify
nearly $200 million in improper payments. It reported that Defense Financial
Accounting Service internal reviews and data mining efforts identified $170.0 million in
improper payments for recovery. Additionally, the Tricare Management Activity used a
recovery audit contractor to identify $25.3 million in FY 2006 improper payments. DoD
also took action to improve the focus and management of its program. In November
2006, the Under Secretary of Defense (Comptroller)/Chief Financial Officer established a
project officer and working group to oversee, improve, and expand the DoD recovery
audit program.

Results. The Under Secretary of Defense (Comptroller)/Chief Financial Officer did not
have adequate controls to fully implement a recovery audit program. Efforts to manage
recovery audit contracts have been largely unsuccessful. Further, in the FY 2006
Performance and Accountability Report, DoD overstated the amount identified through
recovery audits by $64 million. The Department needs to disseminate guidance to
improve contracting for recovery audits and adhere to guidance in reporting recovered
funds. Finding and publicizing DoD entities’ best practices in recovery auditing could
leverage success throughout the Department. For instance, DoD should expand recovery
audits in the area of telecommunication payments. In December 2006, the Navy awarded
a recovery audit contract and projected it could recover 21 percent of the nearly
$1 billion it paid for telecommunication services in prior years. By expanding this effort
to Army, Air Force, and other DoD telecommunication payments, DoD would realize as
much as $837 million in potential monetary benefits. (See the Finding section for the
detailed recommendations and Appendix B for summary of potential monetary benefits.)

Management Comments and Audit Response. Although the Acting Deputy Chief
Financial Officer concurred with one recommendation and partially concurred with
another recommendation, he nonconcurred with one recommendation. He nonconcurred
with our recommendation that he develop a plan to remedy recovery auditing
impediments encountered by the Defense Logistics Agency and TRICARE Management
Activity officials. He believed it was the responsibility of contracting officers to correct
impediments. He also did not believe there was excessive oversight by Department
officials in pursuing recoveries and did not believe performance metrics were necessary.
In response to our recommendation to conduct recovery audits in all of the Military
Departments in the area of telecommunications, he stated that during a May 16, 2007,
DoD-wide conference on improper payments and recovery auditing, he notified the
Components’ lead personnel of the recovery audit potential of the telecommunication
area. However, he stated that it would be premature to designate the Navy
telecommunication recovery audit as a best practice until the Navy makes recoveries on
the contract. He stated that the Office of Under Secretary of Defense
(Comptroller)/Chief Financial Officer would continue to work with the Navy to identify
and disseminate the lessons learned from the Navy recovery audit contract once the Navy
reaches a point of developing a proven, successful, and cost-effective approach and
related recovery audit plan.

The Acting Deputy’s plan to work with the Navy and disseminate lessons learned from
the Navy’ recovery audit contract satisfies the intent of our recommendation. However,
we disagree with the Acting Deputy’s response to our recommendation to develop a plan
to remedy impediments to recovery auditing encountered by the Defense Logistics
Agency and the TRICARE Management Activity. On November 2, 2006, he appointed a
project officer for Improper Payment Information Act and Recovery Audits who is
responsible for assisting Components with recovery auditing methodologies and
processes as needed. Our recommendation is within the scope of the assigned
responsibilities of the project officer. We ask that the Acting Deputy reconsider his
position and provide comments on the final report by August 9, 2007.

See the Finding section of the report for a discussion of the management comments. See
the Management Comments section of the report for the complete text of the comments.




                                           ii
Table of Contents 


Executive Summary                         i


Background                                1


Objectives                                1


Review of Internal Controls               1


Findings 

      Recovery Audit Program Results 	    3


Appendixes
      A. Scope and Methodology 	         12 

          Prior Coverage                 12 

      B. Potential Monetary Benefits 	   14 

      C. Report Distribution 	           15 


Management Comments
      Under Secretary of Defense 	       17 

Background 

     Title 31, United States Code, sections 3561-3567, and Office of Management and
     Budget (OMB) memorandum number M-03-07, “Programs to Identify and
     Recover Erroneous Payments to Contractors,” January 16, 2003, include
     provisions for Government Agencies to establish recovery audit programs. The
     DoD Financial Management Regulation volume 10, chapter 22, “Recovery
     Audit,” December 2005, (the FMR) established policy for a recovery audit
     program in DoD.

     Chapter 22 of the FMR defines a recovery audit as a post-payment review and
     analysis of a DoD Component’s books, supporting documents, and other available
     information supporting its payments. It is specifically designed to identify
     overpayments to contractors that are caused by payment errors. It is not an audit
     in the traditional sense. It is a management control function.

     The FMR allows either Government employees or contractors to perform
     recovery audits. It requires that any DoD Component with contracts totaling in
     excess of $500 million implement a cost-effective recovery audit program as part
     of its internal controls over contractor payments. At the time of audit the Under
     Secretary of Defense (Comptroller)/Chief Financial Officer (USD[C]/CFO) had
     not identified the Components in DoD that procured more than $500 million in
     FY 2006. However, the Department was using a mixture of internal auditors and
     contract auditors to perform recovery audits in several areas.

     OMB Circular A-136, “Financial Reporting Requirements,” August 23, 2005,
     requires that recovery audit program information be included in the annual
     Performance and Accountability Report (PAR) along with improper payment
     information. In FY 2004, FY 2005, and FY 2006, the USD(C)/CFO compiled
     and provided specific recovery audit program information in its PAR.


Objectives
     The overall objective of the audit was to determine whether DoD had adequately
     identified and reported on programs and activities susceptible to significant
     improper payments. This report discusses the objective as it relates to DoD
     efforts to implement a recovery auditing program. We will further cover the
     objective in a subsequent report on the identification and reporting of erroneous
     payments in the DoD. See Appendix A for a discussion of the scope and
     methodology and for prior coverage related to the objectives.


Review of Internal Controls
     We identified internal control weaknesses for USD(C)/CFO as defined by DoD
     Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
     January 4, 2006. USD(C)/CFO did not have adequate controls to fully implement

                                         1

a recovery audit program: Implementing Recommendations 1, 2 and 3 would
expand the use of recovery audits and improve oversight of recovery audit
contracts.




                                  2
 

                  Recovery Audit Program Results
                  DoD did not develop a fully effective recovery audit program to identify
                  and recover overpayments to contractors. Further, DoD overstated the
                  amount it reported that its recovery audit program identified. Specifically,
                  the DoD FY 2006 Performance and Accountability Report included
                  $64 million of unsolicited refunds from contractors in the $170 million it
                  reported DoD identified in recovery audits. The program was less than
                  fully effective and reporting was inaccurate because USD(C)/CFO
                  personnel did not:

                          •	 effectively manage recovery audit contracts;

                          •	 develop a plan to remedy impediments for using recovery audit
                             contractors including denials to data access, poor data quality,
                             and excessive oversight;

                          •	 follow existing policies for reporting on recovery audits in the
                             DoD Performance and Accountability Report;

                          •	 seek out best practices among specific DoD entities’ recovery
                             audit efforts to improve overall success of the program.

               Improvements in contract oversight procedures will reduce delays and
               increase the timeliness and effectiveness of contracted recovery audits.
               Improvements in reporting will make information more reliable. Identifying
               successful recovery audit practices among DoD entities and disseminating
               information on those programs to other DoD entities could leverage the
               success. For instance we estimate that DoD may realize as much as an
               additional $837 million in potential monetary benefits through use of
               recovery auditing in the area of telecommunication payments. (See the
               heading, Expanding the Opportunity, on page 8.)


Significant Management Actions
          In August 2005, the DoD Inspector General recommended that USD(C)/CFO
          issue policy to implement a cost-effective recovery audit program and that it
          establish a program manager to oversee the program and its implementation. 1 In
          response to the recommendations, DoD issued Financial Management Regulation
          volume 10, chapter 22, “Recovery Audit,” December 2005, which officially
          established the DoD recovery audit program and requires DoD Components to
          implement a cost-effective program if they enter into contracts valued at
          $500 million annually.

          The USD(C)/CFO also issued a memorandum in November 2006 that established
          a DoD project officer (instead of a program manager as recommended) for

1
    DoD IG Report No. D-2005-101, “DoD Recovery Audit Program,” August 17, 2005.

                                                 3

           Improper Payments and Recovery Auditing. According to the memorandum, the
           project officer will review the Department’s statistical methodologies and
           processes for capturing and reporting recovery audit information to verify DoD
           reporting is accurate and complete and that it meets OMB reporting requirements.
           The project officer is still in the process of establishing and coordinating a
           working group that will consist of representatives from major DoD Components
           to assist in the review and to help modify the methodologies and processes as
           needed.

           We expect the recent establishment of a project officer to result in recovery
           auditors having greater access to contract files and in expansion of the program to
           DoD General Fund activities.


Management of Recovery Audit Contracts
           DoD procedures for oversight of recovery audit contracts are ineffective and need
           attention from the working group the new project officer is forming. For instance,
           a recovery audit contract managed by TRICARE Management Activity (TMA)
           was in jeopardy because of poor contract administrative procedures that,
           according to a recent audit report, did not comply with Federal Acquisition
           Regulations. Additionally, personnel in the Defense Logistics Agency (DLA)
           told us that contract administration problems have impeded their attempts to enter
           into a new contract. A summary of the TMA and the DLA issues follows.

           TMA. TMA awarded a 4-year contract to a private recovery audit firm in
           FY 2003 to review medical education costs. Although the recovery audit
           contractor identified $25.3 million in overpayments in FY 2006, a recent audit by
           the Office of Inspector General, DoD, 2 identified problems with the management
           of the contract. Specifically, the auditors determined that the contingency fees
           paid to the contractor were overstated by $4.7 million and the contract was
           extended without legal authority and approval. The auditors also determined that
           poor contract administrative procedures caused the problems. The specific
           deficiencies follow.

                   •	 The TMA contract file did not support Federal Acquisition Regulation
                      (FAR) requirements for unsolicited proposals.

                   •	 The unsolicited proposal did not include sufficient technical
                      information as required by the FAR.

                   •	 TMA commenced negotiations without a favorable technical
                      evaluation as required by the FAR.

                   •	 TMA did not adequately justify issuing the contract as a sole-source
                      award under the authority of the FAR.


2
    “TRICARE Contract Award for the Audit of Capital and Direct Medical Education Costs,” Report No. D-
    2007-6-002, October 11, 2006.

                                                    4
 

Our audit report recommended that TMA terminate the contract. At the time of
this audit the future of the contract was uncertain.

Defense Logistics Agency. DLA awarded its first recovery audit contract in
FY 1996. DLA personnel responsible for managing their recovery audit program
told us they did not renew the most recent recovery audit contract and have not
had one in place since the end of FY 2004. In FY 2004, the DLA contractor was
successful in identifying $5 million of recoveries in overpayments.

A DLA recovery auditing specialist told us that DLA was planning to solicit a
new contract in FY 2006. However, as of March 2007, DLA was still resolving
data access issues and a new contract had not been awarded. The Defense Supply
Center Philadelphia (DSCP) will administer the new contract because of its
experience managing the prior DLA recovery audit contracts.

DLA personnel stated that contract administration problems had delayed DLA’s
plan to issue a contract in FY 2006. Problems encountered on the previous
contract included:

    •	 controlling data access. DSCP contracting officials sanitized contract
       files to protect sensitive and proprietary data before allowing access by
       recovery audit contractors.

    •	 inadequate documentation. The recovery audit contractors did not always
       provide sufficient information to successfully recover alleged
       overpayments.

    •	 time consuming oversight. DSCP contracting officials often performed
       lengthy reviews to authenticate alleged improper payments identified by
       the recovery audit contractor.

DSCP terminated the previous recovery audit contract after problems in managing
the contract and in resolving discrepancies with the recovery audit contractor
were disclosed. One such problem occurred in FY 2000 after the recovery auditor
identified overpayments on pharmaceuticals (affecting five vendors) and
submitted it to DSCP for collection.

DSCP initiated collection actions but discontinued them after the pharmaceutical
vendors disagreed that they were overpaid. DSCP officials told us that they did
not have enough information to force the collections and that the recovery auditor
should have provided more detailed information.

We provided the same data to a Defense Contract Audit Agency (DCAA) official
with expertise in pharmaceutical pricing and received confirmation that the
overpayments were valid. We concluded that DSCP should have worked with the
recovery auditor, the pharmaceutical vendors, and DCAA to collect the
overpayments rather than discontinue the recovery efforts. Enhanced procedures
will ensure recovery audit efforts are not wasted.




                                    5
 

Reporting FY 2006 Recovery Audit Program Results
           In FY 2004, USD(C)/CFO began sending DoD Components an improper
           payments survey that included a request for recovery audit information. The
           surveys have been used each year since FY 2004. USD(C)/CFO used the
           returned survey results to compile information about recovery audits for inclusion
           in its PAR.

           Surveys returned in FY 2006 showed that the DoD recovery audit program was
           limited in scope and consisted primarily of the results of DFAS recovery efforts
           and internal data mining efforts. According to information shown in the FY 2006
           DoD PAR, the DFAS internal recovery efforts and other internal efforts were
           applied to $299.4 billion of DoD payments. The efforts identified $170.0 million
           for recovery.

           In addition to the internal efforts, the Tricare Management Activity awarded and
           administered a recovery audit contract with an independent firm. In FY 2006, the
           contractor identified $25.3 million in overpayments that the DoD could recover.

           The FY 2006 PAR included a two page summary of DoD efforts to identify and
           collect its improper payments. The PAR showed that internal efforts 3 that
           identified the $170 million in improper payments for recovery was $8.1 million
           more than reported in FY 2005 as recoverable. However, the reporting was
           misleading. DFAS survey documents show that DoD vendors and payees
           voluntarily identified and returned $64 million of the $170 million for FY 2006.

           The following table shows the origination of the data used to compile the amount
           reported in the PAR.



                                     FY 2006 PAR Reporting
                                          ($ in millions)
                      Identification Source               Overpayments
                      DFAS Site                             $86.04
                      Vendor/Payee                          $64.04
                      Predator data mining software           $9.05
                      Mongoose data mining software           $4.78
                      Internal Review                         $3.79
                      Accounting Activity                     $1.99
                      Post Payment Audit                      $0.26
                      Total Overpayments Identified        $169.95


           The amounts reported for Vendor/Payee should not be included in the amount
           reported in the PAR. The Vendor/Payee category consists of amounts returned

3
    According to the PAR overpayments identified for recovery are primarily attributable to internal recovery
    audit efforts, contract reconciliations, statistical sampling, and voluntary refunds. Dollar amounts
    attributable to each are not provided.

                                                       6
           from vendors. The amounts were identified by the vendors and did not originate
           from recovery audit efforts.

           USD(C)/CFO included verbiage in the PAR that some of the amounts identified
           for recovery include voluntary refunds. However, voluntary refunds are not
           appropriately reported under recovery audits because they are amounts the vendor
           returns without any recovery audit in place.

           Financial reporting guidance for recovery audits does not include voluntary
           refunds from vendors. Specifically, the FMR section 2201, paragraph 220102,
           “Applicability” requires that recovery audit results displayed in the PAR be
           reported in accordance with OMB Circular No. A-136, “Financial Reporting
           Requirements,” which requires that agencies report on the results of their
           recovery audit effort and the amounts identified for recovery. OMB Circular
           No. A-136 does not mention refunds. Voluntary refunds also are not included in
           FMR guidance on recovery audit reporting.

           We concluded the amount identified by internal recovery efforts that DoD should
           have reported was $106 million. Correcting the reported amount also changes the
           percentages reported. The $106 million reduces the percentage of improper
           payments identified by internal efforts to .04 percent of the payments reviewed
           rather than the reported .06 percent. 4 The new DoD project officer needs to
           exclude voluntary refunds from the FY 2007 PAR.


Recovery Audit Best Practices
           The Navy identified telecommunication payments as a prospective area for
           recovery auditing in FY 2006 and awarded a recovery audit contract in FY 2007.
           The contract award was the result of a Navy plan to improve its
           telecommunication management. In FY 2003 the Inspector General, DoD, found
           payment certification problems and recommended 5 that the Defense Information
           Systems Agency (DISA) improve its payment process for certain
           telecommunication services. In FY 2004 the Government Accountability Office 6
           (GAO) recommended that the Navy develop a plan to integrate its
           telecommunications policy and strategic efforts.

           As a result, in a July 16, 2004, memorandum, the Secretary of the Navy
           emphasized improving managerial oversight of Navy telecommunications. To
           accomplish the improvements he tasked the Department of the Navy Chief
           Information Officer (Navy CIO) to develop a management action plan to ensure
           integration of telecommunication policy and strategy efforts across the Navy.
4
    The percentage of .06 was inadvertently presented in the PAR as .0006 percent. The reported amounts-:
    $170 million (identified for recovery) divided by $299.4 billion (amount reviewed) -equates to .0006 or
    .06 percent.
5
    DoD IG Report No. D-2003-124, “Certification of a DoD Payment for Telecommunication Services,”
    August 22, 2003.
6
    GAO Report No. 04-671, “Vendor Payments: Inadequate Management Oversight Hampers the Navy’s
    Ability to Effectively Manage its Telecommunication Program, June 2004.

                                                      7

          The Navy CIO completed the action plan in October 2004—before the FMR
          required recovery auditing—and a recovery audit was not included in the plan.

          USD(C)/CFO subsequently issued new DoD policy 7 for implementing recovery
          auditing. This policy dovetailed with the Navy management action plan. As a
          result the Navy CIO undertook a pilot project in FY 2006 to assess the feasibility
          of using recovery audits to identify telecommunication payment errors.

          The Navy performed feasibility studies at four locations and identified potential
          recoveries and the possibility of savings of approximately 21 percent of the
          amount paid for telecommunication services. The Navy studies indicated the
          problems with telecommunication payments were widespread in that industry. As
          a result, the Navy CIO concluded that a recovery audit of its telecommunication
          contracts would be a cost-effective method to recover overpayments.

          On December 26, 2006, the Naval Inventory Control Point awarded a contract for
          the Navy CIO to Avysion IT, Inc. to conduct a cost recovery audit of
          telecommunication expenses for the Navy. The contract includes recovery audit
          tests at all Navy and Marine Corps installations within the United States and,
          according to a Navy official, will include payments made over the last 3 years.


Expanding the Opportunity
          The Navy and Marine Corps combined expenditures during FYs 2005 though
          2007 will total about $951.6 million for telecommunication services. Similarly,
          the Air Force, Army and other DoD Components collectively spend another
          $1.64 billion annually. Defense Working Capital Fund budget estimates show
          that these Components will spend about $4.7 billion for telecommunication
          services for FYs 2005 through 2007.

          The Navy feasibility studies of telecommunication payments indicate a potential
          to realize considerable savings Department-wide. The Navy pilot study showed
          that recoverable charges included those costs not charged in accordance with the
          contract, billing from multiple vendors, billing for disconnected lines, incorrect
          charges, double billing, not using alternative service, and unauthorized tax
          charges. The problems with telecommunication payments are not unique to the
          Navy. Navy personnel familiar with telecommunications payments, indicated
          contracts for telecommunications services are similar in all three Military
          Departments and each likely would have similar payment errors or overcharges.
          They also indicated that surveys in industry by telecommunications expense
          management experts conservatively estimate that there is potential for a
          significant savings in telecommunications expenses by leveraging technology to
          manage costs and using automated telecommunications expense management
          systems. We calculate that—using the Navy estimate of 21 percent in potential
          savings, less 15 percent of recoveries paid to the contractor—the Army, Air Force

7
    USD(C)/CFO Memorandum Subject “Programs to Identify and Recover Erroneous Payments,”
    October 17, 2005 and the DoD Financial Management Regulation volume 10, chapter 22, “Recovery
    Audit,” December 2005.

                                                   8
 

    and other DoD Components could expect potential savings of $837 million. We
    therefore conclude that the project officer should aggressively pursue
    implementation of recovery audits for all DoD telecommunication contracts.


Recommendations, Management Comments and Audit
  Response
    We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer:

    1. Develop a plan to remedy recovery auditing impediments encountered by
    Defense Logistics Agency and Tricare Management Activity officials. The
    plan should include procedures that:

           a. Improve data access by increasing recovery auditor access to
    contract files, removing impediments caused by proprietary records, and
    allowing timely access to data.

    Management Comments. The Acting Deputy Chief Financial Officer
    nonconcurred and stated that impediments with data access, contract files, and
    proprietary records need to be addressed by the Contracting Officer and the
    recovery audit contractor on a case-by-case basis.

    Audit Response. The Acting Deputy Chief Financial Officer comments are
    nonresponsive and inconsistent with the duties he assigned to the Project Officer
    for Improper Payments and Recovery Audits. Specifically, his
    November 2, 2006, memorandum, “Project Officer for Improper Payment
    Information Act and Recovery Audits,” requires the Project Officer to assist the
    Components and help modify methodologies and processes as needed. We
    concede that some impediments may be unique to Components and not under the
    purview of the Project Officer. However, our recommendation is within the
    scope of the assigned responsibilities of the Project Officer, and he needs to
    develop a plan that helps reduce commonplace obstacles and improves recovery
    auditor access to needed data and files while protecting sensitive records. We
    request that the Office of Under Secretary of Defense (Comptroller)/Chief
    Financial Officer reconsider its position and provide additional comments.

           b. Assure the recovery auditor provides quality data to the
    Department by including provisions in recovery audit contracts to penalize
    recovery auditors for referrals that require the Department to spend large
    amounts of time and resources to research but do not have a high probability
    of recovery.

    Management Comments. The Acting Deputy Chief Financial Officer
    nonconcurred and stated that the Contracting Officer is responsible for
    establishing appropriate terms and conditions in the recovery audit contract to
    ensure the contractor delivers a high quality product.


                                         9
 

Audit Response. The Acting Deputy Chief Financial Officer comments are
nonresponsive and, again, are inconsistent with the duties he assigned to the
Project Officer for Improper Payments and Recovery Audits. Specifically, his
November 2, 2006, memorandum requires the Project Officer to assist the
Components and help modify methodologies and processes as needed. The
Contracting Officer is responsible for ensuring a quality product from its recovery
auditor. However, we believe helping Components to hold contractors
accountable for a deliverable they can use is within the scope of the Project
Officer’s duties. Recovery audit contracts are not yet commonplace in the
Department and many lessons and practices have yet to be learned. Navy
telecommunications are one example of this evolution. The Project Officer needs
to develop a plan that helps Contracting Officers from across the Department
share information and ensure that recovery audit contracts include quality
assurance provisions. We request that the Office of Under Secretary of Defense
(Comptroller)/Chief Financial Officer reconsider its position and provide
additional comments.

      c. Minimize delays from excessive oversight by officials in the
Department by establishing performance metrics that ensure recoveries are
pursued as expeditiously as possible.

Management Comments. The Acting Deputy Chief Financial Officer
nonconcurred and disagreed that there is excessive oversight by Department
officials in pursuing recoveries. He also stated that establishing performance
metrics is not practical because of unique circumstances encountered in the
pursuit of recoveries. He further stated that one of the best incentives to ensure
Component personnel are expeditiously working recoveries is the availability of
the recovered funds for the Component to use to offset its operating expenses for
administration of the recovery audit program.

Audit Response. The Acting Deputy Chief Financial Officer comments are
partially responsive. We agree that offsetting program expenses with recovered
funds is an incentive to collect overpayments identified by the recovery auditor.
Departmental requirements call for a cost-effective recovery audit program.
However, DSCP discontinued its recovery audit contract due in part to excessive
oversight. Additionally, excessive oversight costs further diminish the recovered
amounts that can be returned to the originating fund or appropriation. We request
that the Office of Under Secretary of Defense (Comptroller)/Chief Financial
Officer reconsider its position and provide additional comments on developing a
plan to reduce excessive Departmental oversight.

2. Comply with existing audit recovery reporting policies and discontinue
the practice of reporting unsolicited returns as recovered overpayments in
the DoD Performance and Accountability Report.

Management Comments. The Acting Deputy Chief Financial Officer concurred
and stated that voluntary refunds from vendors will be appropriately addressed in
the DoD Performance and Accountability Report.

3. Designate the Navy telecommunication recovery audit as a best practices
model and direct the Components with telecommunication contracts to

                                    10
 

conduct pilot programs to determine the feasibility of awarding a similar
recovery audit contract.

Management Comments. The Acting Deputy Chief Financial Officer partially
concurred and stated that it is premature to designate the Navy recovery audit as a
best practice since it has not yet made any recoveries. He stated that during the
May 16, 2007, Improper Payments and Recovery Audit conference he notified the
Components’ lead personnel of the recovery audit potential of the
telecommunication area. He further stated that he will continue to work with the
Navy to identify and disseminate the lessons learned from its recovery audit.

Audit Response. The Acting Deputy Chief Financial Officer comments and
alternative actions are responsive and satisfy the intent of the recommendation.




                                    11
 

Appendix A. Scope and Methodology 

      We determined whether DoD complied with the requirements of Title 31, United
      States Code, sections 3561-3567, “Identification of Errors Made by Executive
      Agencies in Payments to Contractors and Recovery of Amounts Erroneously
      Paid” and the related Office of Management and Budget (OMB) memorandum
      number M-03-07, “Programs to Identify and Recover Erroneous Payments to
      Contractors,” January 16, 2003. We analyzed survey information on improper
      payments to determine whether DoD identified all erroneous payments recovered
      by DFAS and recovery audit contractors. We also analyzed Defense Working
      Capital Fund budget excerpts to estimate the cost of annual telecommunication
      services. We interviewed DoD Component personnel responsible for managing
      and administering recovery audit contracts.

      We performed this audit from May 2006 through March 2007 in accordance with
      generally accepted government auditing standards.

      Use of Computer-Processed Data. We did not use computer-processed data to
      perform this audit.

      Government Accountability Office High-Risk Area. The Government
      Accountability Office has identified several high-risk areas in DoD. This report
      provides coverage of the contract payment and financial management high-risk
      areas.


Prior Coverage
      During the last 5 years, the Government Accountability Office (GAO), the
      Department of Defense Inspector General (DoD IG), and the U.S. Army Audit
      Agency (AAA) issued 6 reports on the DoD recovery audit program. Unrestricted
      GAO reports can be accessed over the Internet at http://www.gao.gov.
      Unrestricted DoD IG reports can be accessed at
      http://www.dodig.mil/audit/reports.

GAO
      GAO Report No. GAO-02-635, “Contract Management: Overpayments Continue
      and Management and Accounting Issues Remain,” May 2002.

      GAO Report No. 04-671, “Vendor Payments: Inadequate Management Oversight
      Hampers the Navy’s Ability to Effectively Manage its Telecommunication
      Program,” June 2004.




                                          12
 

DoD IG
     DoD IG Report No. D-2003-124, “Certification of a DoD Payment for
     Telecommunication Services,” August 22, 2003.

     DoD IG Report No. D-2005-101, “DoD Recovery Audit Program,”
     August 17, 2005.

     DoD IG Report No. D 2007-6-002, TRICARE Contract Award for the Audit of
     Capital and Direct Medical Education Costs,” October 11, 2006.

Army Audit Agency (AAA)
     AAA Report No. A-2006-0129-FFM, “The Army’s Recovery Audit Initiative,”
     June 9, 2006.




                                      13
 

Appendix B. Summary of Potential
            Monetary Benefits
Recommendation
   Reference       Type of Benefit     Amount of Benefit      Account(s)

      3          Cost recovery of     $837 million.        Army, Air Force,
                 improper payments    The benefit amount   and Defense
                 made to              will be revised as   Operations and
                 telecommunication    Components recover   Maintenance
                 contractors.         telecommunication    Accounts
                                      overpayments.




                                     14
 

Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Chief Information Officer
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Commands
Commander, U.S. Northern Command
Commander, U.S. Southern Command
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command
Commander, U.S. Pacific Command
Commander, U.S. European Command
Commander, U.S. Central Command
Commander, U.S. Transportation Command
Commander, U.S. Special Operations Command
Commander, U.S. Strategic Command




                                          15
 

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform




                                         16
 

Under Secretary of Defense Comments 



                    OFFICE OF T H E UNDER S E C R E T A R Y OF DEFENSE
                                1100 DEFENSE PENTAGON
                             WASHINGTON, DC 20301-1100




     MEMORANDUM FOR PROGRAM DIRECTOR, DEFENSE FINANCIAL
                      AUDITING SERVICE, OFFICE OF THE
                      INSPECTOR GENERAL, DEPARTMENT OF
                      DEFENSE

     SUBJECT: Comments to Draft Audit Report, "Report on Identification and Repotting of
              Improper Payments through Recovery Auditing"
              (Project No, D2006-D000FJ-0156.001)

          This memorandum is in response to your request tot comments on the audit
     recommendations contained in the subject audit report, issued March 29, 2007

     Recommendation 1. We recommend that the Under Secretary of Defense
     (Comptroller)/Chief Financial Officer, develop a plan to remedy recovery auditing
     impediments encountered by Defense Logistics Agency and Tricare Management
     Activity officials The plan should include procedures that:

           a. Improve data access by increasing recovery auditor access to contract files,
     removing impediments caused by proprietary records, and allowing timely access to data

             b Assure the recovery audita! provides quality data to the Department by
     including provisions in recovery audit contracts to penalize recovery auditors for referrals
     that require the Department to spend large amounts of lime and resources to research but
     do not have a high probably of recovery.

             c Minimize delays from excessive oversight by officials in the Department by
     establishing performance metrics that ensure recoveries are pursued as expeditiously as
     possible

     OUSD(C) Comments:
             la Nonconcur Impediments with data access, contract files, and proprietary
     records that may arise during contract performance need to be addressed by the
     Contracting Officer and the recovery audit contractor on a case-by-case basis The
     recovery audit contract includes a bilaterally negotiated statement of work and contract
     clauses that best address these impediments and allow the issues to be resolved within
     existing contract laws and regulations.




                                                    17 

        lb. Nonconcur The Contracting Office: is responsible for establishing
appropriate terms and conditions in the recovery audit contact, as they do with any other
type of service contract, to ensure the contractor delivers a high quality product The
proper selection of a qualified and experienced recovery audit contractor, the inclusion of
specific and clearly defined contract deliverables, and appreciate oversight of the
contractor ensure the recovery audit contractor provides quality data. If deemed
appropriate, the Contracting Officer has the authority to include a penalty clause within
the terms of the contact

       1c Nonconcur We do not believe that there is excessive oversight by
Department officials in pursuing recoveries The proper review and validation of the
recovery auditor's claim is essential to ensure the claim is adequately supported,
defendable, and the identity of all funds to be recovered are matched to the correct
appropriation.

        Establishing performance metrics, including a realistic baseline to measure the
expeditious pursuit of recoveries, is not practical The unique circumstances encountered
in the pursuit of recoveries including the type of cost area being audited, the documents
and data sources needed to establish a proper and valid overpayment claim, and the tights
and appeal processes that are available to the recovery audit contractor and vendor, do
not lend themselves to a practical measure. We believe one of the best incentives to
ensure Component personnel are expeditiously working recoveries is the ability of the
Component to use the recovered funds to offset current operating expenses for the
administration of the recovery audit program, and to pay for other obligations within the
identified appropriation for the purposes and period for which the appropriation is
available

Recommendation 2 Comply with existing audit recovery reporting policies and
discontinue the practice of repotting unsolicited returns as recovered
overpayments in the DoD Performance and Accountability Report

OUSD(C) comments: Concur Voluntary refunds from vendors will be addressed in
more appropriate sections of the PAR, in lieu of the recovery audit section

Recommendation 3 Designate the Navy telecommunication recovery audit as a best
practice model and direct the Components with telecommunication contracts to conduct
pilot programs to determine the feasibility of awarding a similar recovery audit contract

OUSD(C) comments: Partially Concur The Navy telecommunications recovery audit
contract was awarded on December 26, 2006, and to date, no recoveries have been
identified and collected As a result, we believe it would be premature to designate this
recovery audit and the related contract terms and conditions as a best practice model for
other Components to use. We notified the Components' Improper Payments and
Recovery Auditing (IPRA) lead personnel of the recovery audit potential of the




                                               18 

telecommunication area at our May 16, 2007 IPRA conference We will continue to
work with the Navy to identify and disseminate the lessons learned from the Navy's
recovery audit to the IPRA working group members once the Navy completes its work to
a point of developing a proven, successful, and cost effective approach and related
recovery audit plan

       We appreciate the opportunity to respond to your request for comments on the
audit report My point of contact is Mr. Wayne Goff, who can be contacted by telephone
at 703-697-0831 or e-mail at wayne goff@osd.mil.




                                       Robert P McNamara 

                                       Acting Deputy Chief Financial Office: 





                                            19 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
James L. Kornides
Curt W. Malthouse
John R. Williams
Catherine Bird
Karen M. Bennett
